Office of Inspector General

                                                                 MAR 1 6 2012

MEMORANDUM FOR THE ADMINISTRATOR

FROM:                Office of Inspector General (OIG) - Michael Carroll, Acting Inspector General lsi

SUBJECT:             Independent Auditor's Report on USAID's Compliance With the Improper
                     Payments Elimination and Recovery Act of 2010 (Report No. 0-000-12-001-S)

This memorandum transmits our final report on USAID's compliance with the requirements of
the Improper Payments Elimination and Recovery Act (lPERA) for fiscal year (FY) 2011. Under
IPERA, USAID management is responsible for complying with the requirements of the Act and
OIG is responsible for reviewing USAID's reporting on improper payments in the Agency
Financial Report (AFR) and accompanying materials, and determining whether the agency
complied with IPERA.

OIG found that USAID complied with IPERA requirements for FY 2011 ending September 30,
2011, and as reported in its Agency Financial Report dated November 15, 2011. Our tests
disclosed one area in which internal controls over improper payments should be improved.
Specifically, we determined that USAID did not ensure that audits of costs incurred by
contractors were completed in a timely manner to identify, prevent, and recover improper
payments.

This report contains one recommendation to improve USAID's internal controls over improper
payments.

We have considered USAID's management comments on the draft report and the
recommendation therein and concur with the Agency's management decision on the
recommendation. Please provide the Audit Performance and Compliance Division in the USAID
Office of the Chief Financial Officer with the necessary documentation to achieve final action.

OIG appreciates the cooperation and courtesies extended to us during the evaluation. OIG is
looking forward to working with your staff during the FY 2012 evaluation of USAID's compliance
with IPERA.




u.s. Agerey for International Development
1300 Pennsylvania Avenue, t#I
Washington, DC 20523
www.usaid.gov/oig
CONTENTS 

 Background.....................................................................................................1 


          Evaluation Objective..............................................................................2 


          Evaluation of USAlO·s Effort........................................................ .......... 2 


 Summary of Evaluation....................................................................................3 


 Finding and Recommendation................... ......................................................4 


 Evaluation of Management Comments.... ..........................................................5 


 Scope and Methodology..................................................................................6 

 Managenwnt COmma.n'ts...........           I •••••••••••••••••••••••••••••••••••• I ••••••••   a ••••••••   I·e • • • • • • • • • • • • • •   7

Background 

On November 26, 2002, Congress passed the Improper Payments Information Act of 2002
(IPIA), requiring federal agencies to provide estimates and reports of improper payments.
Specifically, IPIA required agencies to review all programs and activities annually and identify
those that may be susceptible to improper payments.' Despite IPIA, improper payments
continued to increase throughout government agencies, and fed~ral agencies reported
approximately $100 billion in improper payments for fiscal year (FY) 2009.2 In response, the
President signed Executive Order 13520 of November 20,2009-Reducing Improper Payments
and Eliminating Waste In Federal Programs. The purpose of the Executive order was to
Increase transparency and hold federal agencies accountable for reducing improper payments.
On March 22. 2010, the Office of Management and Budget (OMB) Issued government-wide
guidance for the Implementation of the Executive order in OMB Circular A-123, Appendix C,
Part III. The guidance included specifiC responsibilities for each agency's accountable officials:
to determine high-priority programs, define targets for high-priority programs, and establish
procedures to identHy agencies with outstanding improper payments.

On July 22,2010, Congress passed the Improper Payments Elimination and Recovery Act of
2010 (lPERA). It amended IPIA, repealed the Recovery Auditing Act, and Significantly
increased agency recapture efforts by expanding the types of payments that can be reviewed
and lowering the threshold of annual outlays that requires agencies to conduct payment
recapture audit programs. OMS Memorandum M-11-16 provides agencies guidance on
Implementing IPERA and requires all agencies to submit to OMS a plan for payment recapture
audits that describes their current payment recapture efforts. The new requirements of IPERA3
are summarized below.

• 	 IPERA lowers the threshold for conducting payment recapture audits from $500 mUlion in
    annual outlays to $1 million in annual outlays If conducting such audits would be cost­
    effective. IPERA also expands the scope of the audits from reviewing just contract
    payments to reviewing all programs and activities.

• 	 IPERA requires the Director of OMS to develop specific criteria as to when an agency
    should be required to obtain a separate, annual audit opinion on internal control over
    improper payments,and criteria for establishing a multiyear cycle for obtaining an audit for
    internal control over Improper payments.

• 	 I PERA establishes that the Director of OMS has 1 year to develop the criteria for obtaining
    opinions on internal control over improper payments. Payment recapture audits are an
    effective tool to identify improper payments and their root causes. An agency not having a
    robust audit program for payment recapture would likely trigger a separate opinion on
    internal control over improper payments under the forthcoming guidance on internal control
    over improper payments.




1 IPIA, Public Law 107-300, Section 2(a).
20MB Memorandum M-10-13, March 22, 2010.
30MB Memorandum M-11-04, November 16,2010.

                                                                                                1
The guidance further specifies that if the agency did oot meet one or more of these
requirements, it -was not compliant with IPERA. The agency's inspector general should also
evaluate the accuracy and completeness of the agency's reporting and performance in reducing
and recapturing improper payments.

Evaluation Objective
The OffICe of Inspector General performed this evaluation to determine whether the U.S.
Agency for International Development complied with IPERA for FY 2011, which _ended
September 30, 2011., and as reported in the Agency Financial Report (AFR) dated November
15,2011.                                                       ­

Evaluation of USAlD's Efforts
USAID complied with the requirements of IPERA In its assessment of Improper payments for FY
2011 and In the AFR dated November 15J 2011. The efforts described therein to identify,
prevent, and recover Improper payments appear to be reasonable. However, those efforts could
be augmented by expediting audits of costs Incurred by contractors who perform various
services for the Agency around the wortd.




                                                                                          2
Summary of Evaluation 

We have evaluated the United States Agency for International Development's compliance with
the requirements of the Improper Payments Elimination and Recovery Act of 201 Oas of
September 30, 2011. USAJD's manag~ment is responsible for compliance with those
requirements. Our responsibility is to review USAID's improper payments reporting in the AFR
and accompanying materials to determine whether the agency complied with IPERA.
Compliance with JPERA means that the agency has:

• 	 Published a PAR or AFR for the most recent fiscal year and posted that report and any
    accompanying materials required by OMB on the agency Web site.

• 	 Conducted a specific risk assessment for each program or activity that conforms with
    Section 3321 of Title 31 U.S.C. (if required).

• 	 Published estimates of improper payments for all programs and activities identified      as
    susceptible to significant improper payments .under its risk assessment (if required).

• 	 Published programmatic corrective action plans in the PAR or AFR (if required).

• 	 Published, and met, annual reduction targets for each program assessed to be at risk and
    measured for improper payments.

• 	 Reported a gross Improper payment rate of less than 10 percent for each program and
    activity for which an estimate of improper payment was obtained and published in the PAR
    or AFR.

• 	 Reported information on its effort to recapture Improper payments.4

We conducted the evaluation in accordance with attestation standards established by the
American Institute of Certified Public Accountants and with generally accepted government
auditing standards Issued by the Comptroller General of the United States. Accordingly, our
work included examining, on a test basis, evidence about USAID's compliance with those
requirements and performing such other procedures as we considered necessary in the
circumstances. We believe that our evaluation provides a reasonable basis for determining
USAJD's compliance. Our evaluation does not provide a legal determination on USAJD's
compliance with the specified requirements.

Based on the results of our evaluation, we determined that USAID complied, in aU material
respects, with the aforementioned requirements as of September 30, 2011, and as reported on
November 15, 2011, in Its AFR.

Our tests disclosed one area of USAID's internal controls over improper payments that needs
improvement. Specifically, we determined that USAID did not ensure that audits of costs
Incurred by contractors are completed in a timely manner to identify, prevent, and recover
improper payments


40MB Circular A-123, -Managemenfs Responsibility for Internal Control," Appendix C, Part II,
"Compliance with the Improper Payment Requirements," April 2011. As previously noted in this
report, IPIA has been amended by IPERA.

                                                                                             3
Finding and Recommendation
Audita of Costs Incurred by Contractors Are Not Completed In a Timely Manner to
Identify, Prevent, and Recover Improper Payments

USAID contracts with for-profit organizations to perform various types of services around the
world. USAID requires all costs incurred by these contractors to be audited. These audits are
conducted by the Defense Contract Audit Agency (DeM). During our review, we noted that
DeM was not conducting the audits and reporting the results in a timely manner. As of
September 30, 2011, 168 audits were stili outstanding.

It is important that these a_udlts be performed because they have the potential to identify and
lead to the recovery of Improper payments made by the Agency as illustrated in the table below.

Analysis of Audita Completed by DCAA
                                                               Questioned Costa
        FlecaIYear                  Audita Completed
                                                               ($ million)
       2007                                     91                        12
       2008                                     54                        11
       2009                                     43                         5
       2010                                      7                         o
As of October 1, 2010, 176 audits requested by USAI D had not been completed and after
meeting with OIG, DeM agreed to complete 62 of these audits in FY 2011. However, It
completed only eight of the audits and 168 audits were still outstanding as of September 30,
2011. USAID should try to expedite these audits to improve its performance in identifying,
preventing. and recovering improper payments. One way to expedite the audits would be to
contract with public accounting firms.

   Recommendation t: We recommend that the USAID Administrator direct thE! Office of
   Acquisition and Assistance to explore all options available, including the use of public
   accounting Drms, to expedite the audits of costs incurred by contractors.




                                                                                              4
Evaluation of Management Comments 


We have reviewed and evaluated USAlO's management comments on the finding and
recommendation included in the draft report. The following is a summary of USAIO's
management's comments and our evaluation of them.

USAIO management agreed to implement the recommendation and commented that the Chief
Financial Officer office accepted the finding and stated that audits are an · effective tool for
bringing such payments to light, affecting corrective action and strengthening internal controls.
USAIO management also commented that the OeM has not been meeting acceptable time
and quality standards in recent years and the Office of Acquisitions and Assistance has already
coordinated with the Office of Inspector General to meet with DCM to continue to address
these concems. USAIO's management has already begun the process of seeking such services
from nonfederal auditing firms. The target completion date is December 31, 2012. We have
reached a management decision on the recommendation and wiff review USAIO's
implementation of the recommendation during FY 2012.




                                                                                               5
Scope and Methodology
USAID management is .responsible for (1) complying with IPERA requirements. (2) reporting
improper payments in accordance with OMB Circular A-136, Section 11.5.8, IPIA (as amended
by IPERA), and (3) complying with other applicable laws and regulations.

OIGis responsible for obtaining reasonable assurance about whether USAID comptied with
IPERA requirements as of September 30,2011 . OIG is also responsible for (1) obtaining a
sufficient understanding of the Intemal controls over Improper payments and compliance to plan
the evaluation, (2) testing whether USAID complied with the reporting requirements of OMB
Circular A-136 Section 11.5.8, IPIA (as amended by IPERA), and (3) testing compliance with
selected provisions of IPERA.

To fulfill these responsibilities, OIG:

• 	 Obtained an understanding of USAID's Internal control over improper payments and
    compliance with IPIA aod IPERA.

• 	 Reviewed the Managemenfs Discussion and Analysis and Improper Payments Reporting
    Details in USAlD's FY 2011 AFR to ensure compliance with the reqUirements of IPERA.

• 	 Examined, on a test basis. evidence supporting the amounts disclosed in the quarterly
    report on high-dollar overpayments.

• 	 Evaluated the overall presentation of the improper payments and risk assessment in the
    AFR.

• 	 Tested relevant internal controls over improper payments, and evaluated the design and
    operating effectiveness of the intemal controls. .

• 	 Tested USAID compliance with specific IPERA requirements.

Because of inherent limitations in internal control, noncompliance may occur and .not be
detected. and such testi~g may not be sufficient for other purposes.

We conducted the evaluation in accordance with attestation standards established by the
American Institute of Certified Public Accountants and with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, our
work included examining, on a test basis, evidence about USAID's compliance with those
requirements and performing such other procedures as we considered necessary in the
circumstances. We believe that our evaluation provides a reasonable basis for determining
USAID's compliance. Our evaluation does not provide a legal determination on USAID's
compliance with the specified requirements.




                                                                                            6
Management Comments




                                             March 14, 2012

MEMORANDUM

TO: 	          AIG/A, Michael Carroll

FROM: 	        M1CFO, David D. Ostenneyer lsI

SUBJECT: 	     Report on United States Agency for International Development's (USAID)
               Compliance with the Improper Payments Elimination and Recovery Act

Thank you for your draft report on the United States Agency for International Development's
(USAID) Compliance with the Improper Payments Elimination and Recovery Act.

We are pleased that the USAID Inspector General's review determined that USAID complied
with Office of Management and Budget's (OMB) government-wide guidance for the
implementation of OMB's Circular A-123, Appendix C, Part m and OMB Memorandum M-U­
16 for reporting, reducing and recovering the Agency's improper payments as reported in the
USAID's 2011 Annual Financial Report.

Following are our comments and management decision regarding the proposed audit
recommendation:

Audits of Costs Incurred by Contractors Are Not Completed In a Timely Manner to
Identify, Prevent, and Recover Improper Payments

Recommendation 1. We recommend that the USAID Administrator direct the Office of
Acquisition and Assistance to explore all options available, including the use of public
accounting firms, to expedite the audits of costs incurred by contractors.

Management Decision: Although audits are generally not the front line defense for preventing
improper payments because they occur after the fact, they are an effective tool for bringing such
payments to light, affecting corrective action and strengthening internal controls. There is no
dispute that the Defense Contract Audit Agency (DCAA) has not been meeting acceptable time
and quality standards in recent years and the Office of Acquisition and Assistance (OAA) has
already coordinated with the Office of Inspector General to meet with DCAA to continue to
address these concerns. The DCAA is by far the largest provider of audit services for civilian
agencies but have come under fire repeatedly in recent years for failing to meet basic auditing


                                                                                               7
standards. Accordingly, we have already begun the process of seeking such services from nOD­
federal auditing fIrms. Should funds be made av~able and acceptable offers discove~. OAA
will begin procuring its audit services from ~se new firms on a test basis to ascertain if it
results in improved audit services as it relates to cost, time and quality of service. OAA has
always ensured that s.ustained questioned costs are reimbutsed to USAID.

Target completion date: December 31,2012

In closing. I would like to confIrm USAID's commitment to continual improvement in fInancial
management in the prevention and recovery of improper payments. I intend to support OAA's
efforts to develop and implement long-term solutions to address the issues cited in your report.




                                                                                              8
